      Department of Homeland Security



    Review of Costs Invoiced by Jackson Hole Airport
    Board Relating to Jackson Hole Airport Checked
         Baggage Screening Project Under Other
            Transaction Agreement Number
          HSTS04-09-H-REC125 Awarded by the
            Transportation Security Administration




            American Recovery and Reinvestment Act of 2009



OIG-12-41                                                    February 2012

                                                        Office of Inspector General

                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528




                              FEB 16 2012

MEMORANDUM FOR: 	 Robin Kane
                  Assistant Administrator/Chief Technology Officer
                  Office of Operational Process and Technology
                  Transportation Security Administration

FROM: 	                    Anne L. Richards
                           Assistant Inspector General for Audits

SUBJECT:	                  Review of Costs Invoiced by Jackson Hole Airport Board
                           Relating to Jackson Hole Airport Checked Baggage
                           Screening Project Under Other Transaction Agreement
                           Number HSTS04-09-H-REC125 Awarded by the
                           Transportation Security Administration

Attached for your information is our final report, Review of Costs Invoiced by Jackson
Hole Airport Board Relating to Jackson Hole Airport Checked Baggage Screening
Project Under Other Transaction Agreement Number HSTS04-09-H-REC125 Awarded
by the Transportation Security Administration. Since the report contains no
recommendations to Transportation Security Administration management, we did not
solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing 

copies of our report to appropriate congressional committees with oversight and 

appropriation responsibility over the Department of Homeland Security. We will post the 

report on our website for public dissemination. 


Should you have any questions, please call me, or your staff may contact 

John E. McCoy II, Deputy Assistant Inspector General for Audits, at (202) 254-4100.


Attachment 

Background
On February 17, 2009, Congress enacted the American Recovery and Reinvestment Act of
2009 (Recovery Act), as amended, to preserve and create jobs, promote economic
recovery, and invest in transportation, environmental protection, and other infrastructure
that will provide long-term economic benefits. The Recovery Act appropriated $1 billion
to the Transportation Security Administration (TSA) for “procurement and installation of
checked baggage explosive detection systems and checkpoint explosives detection
equipment….” According to TSA, it awarded $574,023,483 of that amount to 25 airport
organizations for 29 projects related to modifying airports to accommodate new baggage-
screening equipment.

Under Other Transaction Agreement (OTA) No. HSTS04-09-H-REC125, TSA agreed to
reimburse the Jackson Hole Airport Board (the Board) for allowable, allocable, and
reasonable costs to support installation of a Checked Baggage Inspection System (CBIS)
at the Jackson Hole Airport. The OTA cost ceiling is $6,212,437 and covered 95% of
project design, management, and construction for the CBIS portion of the Airport’s
overall baggage handling system ($6,175,437) plus the costs of screening equipment
relocation up to $37,000.

The OTA was signed on June 18, 2009, and specified a project period from March 23,
2009, through December 31, 2010. The OTA required the Board to submit invoices for
reimbursement of project costs to TSA. Reimbursement for eligible project costs is based
on the scope of the agreement; Office of Management and Budget (OMB) Circular A-87,
Revised, Cost Principles for State, Local and Indian Tribal Governments; and the TSA
publication Reimbursable and Non-Reimbursable Costs for the Electronic Baggage
Screening Program, version 1.0, June 2008. As of December 6, 2010, the Board
invoiced costs of $6,212,437 for installation of the CBIS, which represented 95% of the
costs incurred.

The agreement also required the Board to comply with OMB Circular A-133, Revised,
Audits of States, Local Governments, and Non-Profit Organizations, and Recovery Act
provisions to submit quarterly recipient reports to the federal government; pay prevailing
wages as determined by the Secretary of Labor; and use American1 iron, steel, and
manufactured goods.

The objective of this audit was to determine whether costs invoiced by the Board were
allowable, allocable, and reasonable according to the funding agreement and applicable
federal requirements.




1
  On October 13, 2009, the Department of Homeland Security issued a limited waiver of the “buy
American” requirements for each TSA Electronic Baggage Screening Program project. The waiver specifies
that at least 95% of the costs of each project will comply with the buy American requirements of section
1605 of the Recovery Act, and allows up to 5% of total project costs to be used for non-American products.


                                                  Page 2
Results of Review
We determined that that the Board invoiced sufficient allowable, allocable, and
reasonable costs to earn the funds provided under the OTA, as follows:

                           Description                      Invoiced Cost

         Construction, Design, and Management                    $6,500,460
           TSA Share                                                   95%
                                                                  6,175,437
         Equipment Relocation                                        37,000
           Total TSA Share                                        6,212,437

In addition, we verified that the Board submitted the required quarterly reports on project
activities to the federal government. We also determined that the Board complied with
the OTA requirements for paying prevailing wages and using American iron, steel, and
manufactured goods in the construction of the project.




                                           Page 3
Appendix A
Purpose, Scope, and Methodology

                          The objective of this audit was to determine whether costs invoiced
                          by the Board are allowable, allocable, and reasonable according to
                          the funding agreement and applicable federal requirements. Our
                          audit covered invoiced costs of $6,212,437 for the period March
                          23, 2009, through December 6, 2010. This project is completed,
                          and as such this amount represents the total reimbursable and
                          invoiced amount.

                          Our tests and procedures included the following:

                               •	 Reviewing TSA project files, the OTA and modifications,
                                  the Recovery Act, and TSA and OMB guidelines;
                               •	 Interviewing TSA officials to get an understanding of the
                                  project and project management;
                               •	 Examining Board accounting records supporting amounts
                                  invoiced;
                               •	 Interviewing Board officials to obtain an understanding of
                                  project management, accounting, and invoicing;
                               •	 Inspecting the CBIS project; and
                               •	 Reviewing the audit working papers of the certified public
                                  accounting firm that performed the Single Audit of the
                                  Airport for the fiscal year ending June 30, 2010.

                          The Single Audit of the Board was performed by Porter, Muirhead,
                          Cornia, & Howard, and included Recovery Act-funded CBIS
                          project costs totaling $5,687,696 (or about 92% of invoiced costs).
                          The Single Audit report classified the CBIS as a major program
                          and assessed the Board as a low risk. 2 The Single Audit report did
                          not identify any questionable costs related to the CBIS or any
                          deficiencies in internal controls that were identified as material
                          weaknesses.

                          We also tested the Board records supporting costs invoiced to
                          determine compliance with OMB Circular A-87 and with other
                          terms and conditions of the agreement. We considered the Board’s
                          internal controls over the administration of TSA funds in
                          determining our audit procedures.

                          We conducted this performance review between June 7, 2011, and
                          January 20, 2012, pursuant to the Inspector General Act of 1978,
                          as amended, and according to generally accepted government

2
  A low-risk assessment results from the preceding annual Single Audit with an unqualified opinion on the
entity’s financial statements and the schedule of expenditures of federal awards, and no deficiencies in
internal controls that were identified as material weaknesses under the requirements of generally accepted
government auditing standards. This assessment allows for reduced audit coverage.


                                                  Page 4
Appendix A
Purpose, Scope, and Methodology

                   auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to
                   provide a reasonable basis for our findings and conclusions based
                   upon our audit objectives. The evidence we obtained from our
                   tests and procedures provides a reasonable basis for our findings
                   and conclusions based upon our audit objectives.

                   Our audit was conducted without the benefit of a technical
                   evaluation by TSA of the materials and manufactured components
                   used in the construction of the CBIS project; therefore, our
                   conclusions are qualified to the extent that a technical evaluation
                   may affect the allowability of invoiced costs. However, we
                   coordinated our review with appropriate contracting officials.

                   We appreciate the cooperation of the Board and TSA officials in
                   providing the information and access necessary to accomplish this
                   review.




                                      Page 5
Appendix B
Major Contributors to this Report

                    Roger LaRouche, Director
                    Karl Gallagher, Audit Manager
                    Sandra Ward-Greer, Report Referencer




                                      Page 6
Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Acting General Manager, Checked Baggage Division/Program
                        Manager, Electronic Baggage Screening Program, TSA
                      Branch Chief, Office of Acquisition, Security Technology
                        Acquisition Division, TSA
                      Audit Liaison Official, TSA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                                        Page 7
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
